                                                      IG-98-010


AUDIT
REPORT

                             NASA’S PLANS TO SUCCESSFULLY
                             ACHIEVE THE EARTH OBSERVING
                           SYSTEM (EOS) SCIENTIFIC OBJECTIVES



                                      APRIL 3, 1998




                              OFFICE OF INSPECTOR GENERAL
National Aeronautics and
 Space Administration
BACKGROUND

             The Earth Observing System (EOS) Program was authorized as a
             Fiscal Year (FY) 1991 new start. The EOS Program is the
             centerpiece of NASA=s Office of Earth Science (OES) Enterprise
             and is a major part of the comprehensive United States (U.S.)
             Global Change Research Program. The overall goal of the program
             is to advance the understanding of the entire earth system on a
             global scale.

             The EOS Program consists of three components: (1) EOS Flight
             Systems, (2) EOS Data and Information System (EOSDIS), and (3)
             EOS Science Program.           The EOS Science Program uses
             interdisciplinary research that focuses on defining the state of the
             Earth System; understanding its basic processes; and, developing
             and applying predictive models for these approaches. The seven
             objectives of the EOS Science Program are:

                    (1)     The role of clouds, radiation, water vapor, and
                            precipitation.

                    (2)     The productivity of the oceans, their circulation, and
                            air-sea exchange.

                    (3)     The sources and sinks of greenhouse gases, and their
                            atmospheric transformations.

                    (4)     Changes in land use, land            cover,   primary
                            productivity and the water cycle.

                    (5)     The role of polar ice sheets and sea level.

                    (6)     The coupling of ozone chemistry with the climate
                            and the biosphere.

                    (7)     The role of volcanoes in climate change.

             Because of budget reductions that have occurred since FY 1991,
             NASA has changed the EOS Program’s scientific focus from all
             encompassing global change to global climate change. Although
             the scientific focus has changed, the objectives of the EOS Science
             Program have remained the same.



                               1
NASA plans to accomplish the objectives of the EOS Science
Program through Interdisciplinary Science (IDS) and Instrument
Science teams. The IDS teams will use EOS instrument data to
develop and refine integrated Earth system models to help in
understanding the Earth as a system. The IDS teams’ investigations
cross research discipline boundaries by addressing more than one
science objective. The Instrument Science teams define the
scientific requirements for EOS instruments, and generate the
algorithms that will process data from the instruments into useful
products. NASA selected 29 IDS and 19 Instrument Science teams
representing organizations such as NASA, universities, and other
U.S. and foreign government agencies (See Appendices 1 and 2 for
a description of each IDS and Instrument Science Team). NASA
funds all U.S.-based IDS investigations and U.S. scientists on
Instrument Science teams. NASA funds the IDS teams through
ten-year research grants while they provide the Instrument Science
teams’ funds through contracts. For the period FY 1991 through
FY 2000, the NASA-funded IDS and Instrument Science teams
have an overall budget of $677 million. NASA’s international
partners fund the foreign-based teams as well as foreign members of
U.S. teams.

The NASA Headquarters, Office of Earth Science (OES) has
overall responsibility for the EOS Program. The EOS Program
Scientist (OES Science Division) is responsible for oversight of the
IDS teams. The EOS Senior Project Scientist (Goddard Space
Flight Center (GSFC) Earth Sciences Directorate) is responsible for
oversight of the Instrument Science teams. Together, these two
scientists are responsible for ensuring the satisfactory
accomplishment of the objectives of the EOS Science Program.

The EOS Program’s original budget was $17 billion from FY 1991
through FY 2000. Three program restructures resulted in the
budget being reduced to a current level of $7.25 billion through FY
2000.




                  2
OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES         The audit objectives were to determine if:

                           •      The declining EOS Program budget will affect the
                                  planned scientific objectives.

                           •      Actions, planned or taken by NASA, will ensure
                                  accomplishment of the planned EOS scientific
                                  objectives.

                           •      NASA has identified opportunities to accomplish the
                                  EOS scientific objectives through partnerships with
                                  other U.S. agencies, contractors, or the international
                                  community to reduce cost.

SCOPE AND          We performed the audit in accordance with generally accepted
METHODOLOGY        government auditing standards.      As part of the audit, we
                   interviewed Principal Investigators or Co-Principal Investigators
                   from selected IDS and Instrument Science teams. In addition, we
                   reviewed applicable EOS Program documentation such as research
                   proposals, budgets, progress reports, biennial reviews, technical
                   reports, special studies, memorandums of agreement,
                   memorandums of understanding, correspondence, technical plans
                   and performance reports.

AUDIT FIELD WORK   We conducted audit field work from July 1996 through September
                   1997 at NASA Headquarters, GSFC, Langley Research Center, and
                   the Jet Propulsion Laboratory. In addition, we visited the Woods
                   Hole Oceanographic Institute, the National Center for Atmospheric
                   Research, the University of California, Santa Barbara, Colorado
                   State University, and Pennsylvania State University.




                                     3
THIS PAGE INTENTIONALLY LEFT BLANK




                4
OBSERVATION AND RECOMMENDATION

OVERALL                          The OES has attempted to reduce the cost of accomplishing the
EVALUATION                       EOS Science Program’s original objectives. This has been done
                                 through the initiation of partnerships with contractors and other
                                 U.S. and foreign government agencies. The audit did show that
                                 NASA may not fully accomplish the program’s original objectives.
                                 We discuss this observation in detail below.

ACCOMPLISHMENT                   NASA may not fully accomplish the EOS Science Program’s
OF THE EOS                       original objectives. The program’s ability to fully accomplish the
SCIENCE                          science objectives has been affected by (1) significant budget
                                 reductions, and (2) unsatisfactory performance or non-
PROGRAM==S                       responsiveness by five IDS teams. This has resulted in:
ORIGINAL
OBJECTIVES MAY                           •    IDS and Instrument Science teams eliminating or
NOT BE POSSIBLE                               reducing integral research tasks, and

                                         •    near-term gaps in the EOS Science Program.

                                 The OES needs to reevaluate, and if necessary, revise the science
                                 objectives to reflect limitations placed on the EOS Program
                                 because of budget reductions and unsatisfactory IDS teams
                                 performance.

BUDGET                           The OES significantly reduced the IDS and Instrument Science
REDUCTIONS                       teams’ budgets in response to three EOS Program restructures.
NECESSITATE THAT                 For the period of FY 1991 through FY 1996,1 the OES reduced
                                 the budget for the IDS teams 41.8 percent from $119.8 to $69.7
IDS AND                          million. For the period of FY 1991 through FY 2000, the OES
INSTRUMENT                       reduced the budget for the Instrument Science teams 31.2 percent
SCIENCE TEAMS                    from $459 to $316 million.
REDUCE TASKS
                                 In response to the budget reductions, Principal Investigators (PIs)
                                 had to eliminate or reduce research tasks that are integral to the
                                 accomplishment of the EOS Science Program’s objectives.
                                 Examples of actions taken include:

                                          •   Reducing the technical scope of EOS instruments.

                                          •   Eliminating science research tasks.


    1
        OES Officials could not provide IDS team funding figures for FY 1997 through FY 2000.

                                                    5
                           •   Reducing scope on scientific investigations by
                               eliminating foreign site investigations.

                           •   Reducing and eliminating funding for researchers
                               working toward current science objectives.

                   These actions resulted not only in less data for instrument users,
                   but also in data essential to completing some investigations not
                   being collected. Further, the actions taken to eliminate or reduce
                   research tasks could directly affect the ability of the IDS and
                   Instrument Science teams to fully accomplish the EOS Science
                   Program’s objectives.

FUTURE BUDGET      Both IDS and Instrument Science team PIs stated that any future
REDUCTIONS         budget reductions would further limit accomplishment of the EOS
COULD FURTHER      Science Program’s original objectives. In response to past budget
                   reductions, science teams either reduced or eliminated essential
LIMIT              research tasks only to accomplish a portion of the program’s
ACCOMPLISHMENT     objectives. Future budget reductions will further diminish the
OF OBJECTIVES      teams’ chances of accomplishing the objectives.

REVIEWS IDENTIFY   Reviews conducted in 1992 and 1995 identified deficient IDS
DEFICIENT IDS      teams (See Appendix 3 for details on the review process).
TEAMS              Specifically, a programmatic review conducted in 1992 noted
                   substantial deficiencies for five of the 24 IDS teams (reviews were
                   not performed for five IDS teams). The deficiencies noted
                   included (1) weak management, coordination and integration, and
                   (2) a lack of expertise. Despite these findings, the OES did not
                   cancel the teams’ involvement with the EOS Science Program.
                   OES officials informed us that they viewed the 1992 programmatic
                   review as a team building exercise to acclimate team members, and
                   to provide these five teams the time to correct noted deficiencies
                   before the 1995 review.

                   A peer review conducted in 1995 resulted in the deselection of five
                   IDS teams. The OES deselected four IDS teams because of
                   unsatisfactory performance and one team because of its non-
                   responsiveness to the peer review. According to an OES official,
                   the four unsatisfactory IDS teams exhibited similar deficiencies
                   during the 1992 review. As a result, the OES will “phase out”
                   these five teams from the EOS Science Program. The “phase out”
                   period was to be through the end of FY 1997. The results of the
                   1995 peer review stated that, “funding for these teams will be
                   reduced by 50 percent during the next two years to allow a gradual
                   transition, and minimize the adverse impacts on team members.”
                                    6
                   NASA has expended a total of approximately $12.2 million from
                   FY 1993 through FY 1997 for the five IDS teams whose scientific
                   investigations will not be used to accomplish the EOS Science
                   Program’s objectives. This occurred even though the OES knew
                   in 1992 that the five teams were deficient, yet did not cancel their
                   involvement with the program. This also occurred during a period
                   when the EOS Program’s budget was being reduced by more than
                   50 percent.

UNSATISFACTORY     The five deselected IDS teams will not conduct investigations vital
PERFORMANCE        to the successful completion of the EOS Science Program’s
RESULTS IN NEAR-   objectives. This is primarily because the IDS teams’ investigations
                   will cross research discipline boundaries and therefore address
TERM SCIENCE       more than one science objective.            Cancellation of these
GAPS               investigations could result in near-term gaps in the EOS Science
                   Program, and potentially jeopardize accomplishment of each of the
                   program’s seven science objectives. Principal Investigators (PIs)
                   from the five teams rated unsatisfactory and OES Officials both
                   confirmed this conclusion. Three of the five PIs stated that their
                   teams’ investigations were integral to accomplishment of the
                   science objectives. The two other PIs indicated cancellation of
                   their investigations would jeopardize the accomplishment of near-
                   term science objectives. OES officials acknowledged that the loss
                   of the investigations by the five IDS teams will cause immediate
                   EOS scientific gaps, specifically affecting the EOS AM-1 mission
                   (scheduled for launch in 1998). These officials stated that
                   replacement teams were selected who could potentially use data
                   from instruments on the EOS AM-1 spacecraft to conduct
                   investigations.     However, the Research Announcement for
                   soliciting these teams stated that the teams should propose science
                   based on existing non-EOS data sets.

OES EXPECTS IDS    Despite the problems of significant budget reductions and
AND INSTRUMENT     unsatisfactory performance, the OES continues to expect the IDS
SCIENCE TEAMS TO   and Instrument Science teams to accomplish the EOS Science
                   Program’s original objectives. In interviews, OES officials
ACCOMPLISH         provided various reasons for not revising the science objectives.
ORIGINAL           One OES official informed us that he believed the IDS teams could
OBJECTIVES         still accomplish the original objectives despite the funding
                   reductions. Another OES official stated that he advised
                   procurement personnel to modify the contracts of the Instrument
                   Science teams to reflect scope changes caused by budget
                   reductions, such as deleting data products. However, procurement



                                    7
                        personnel informed them that they did not modify the contracts
                        because they are considered “level of effort” contracts, which do
                        not require modification.

SUMMARY                 The audit showed that significant budget reductions because of
                        three EOS Program restructures have necessitated the elimination
                        or reduction of research tasks. Any future budget reductions
                        would further limit accomplishment of the EOS Science Program’s
                        objectives. In addition, five IDS teams identified during the 1992
                        programmatic review as deficient, were subsequently identified as
                        unsatisfactory or non-responsive during the 1995 peer review. The
                        “phase-out” of these five teams will result in not conducting
                        investigations that are vital to completion of the EOS Science
                        Program=s objectives. This action could result in near-term gaps in
                        the EOS Science Program and potentially jeopardize
                        accomplishment of the program=s science objectives.

RECOMMENDATION          The OES needs to reevaluate the EOS Science Program=s original
                        seven objectives and revise them to reflect limitations placed on
                        the program because of budget reductions and unsatisfactory
                        performance by IDS teams.

Management’s Response   Concur in part. NASA stated that they basically agree with the
                        recommendation. However, they stated that the recommendation
                        is made in an incomplete historical context. NASA management
                        stated that they will address the science requirements for EOS and
                        the Earth Science Enterprise in science implementation plans to be
                        issued in Spring 1998.

Evaluation of           We believe that Management’s action to issue science
Management’s Response   implementation plans in Spring 1998, which includes a review of
                        the EOS Program as well as the overall Earth Science Enterprise,
                        to be responsive to our recommendation. We consider this
                        recommendation closed for reporting purposes. We want to
                        reemphasize that there should be a formal written change to the
                        EOS Program Science objectives resulting from NASA’s ongoing
                        efforts to update the Earth Science’s mission, goal and objectives
                        and themes. Based on the staff level discussions that have taken
                        place since the issuance of our draft report, we are confident that
                        this will occur. We take exception to the Deputy Associate
                        Administrator for Earth Science (Programs) comment that “the
                        recommendation is made in an incomplete historical context.” Our
                        audit focused entirely on the EOS program, which is a major
                        component of the Earth Science Enterprise. The majority of the
                        historical data the Office of Earth Science presented in its response
                                         8
address the overall Earth Science objectives. Our audit concludes
that specific attention needs to be directed to the EOS Science
Objectives. Specific focus on the history of the EOS program
clearly shows that the objectives have remained constant despite
the overall changes to the Earth Science Program as discussed in
the referenced attachment. We believe that the Introduction/
Background section of our report provides relevant data with
respect to the EOS program. However, we have included
NASA’s attachment as part of the report for information on the
broader Earth Science Enterprise history.




                9
THIS PAGE INTENTIONALLY LEFT BLANK




             10
                           ATTACHMENT 1


NASA MANAGEMENT RESPONSE




                    11
                           ATTACHMENT 1


NASA MANAGEMENT RESPONSE




                    12
                           ATTACHMENT 1


NASA MANAGEMENT RESPONSE




                    13
                           ATTACHMENT 1


NASA MANAGEMENT RESPONSE




                    14
                                                                           APPENDIX 1

EOS Interdisciplinary Science (IDS) Teams and Principal Investigators

1. Coupled Atmosphere Ocean Processes and the Primary Production in the Southern
       Oceans,
       Dr. Mark Abbott, Oregon State University

2. Global Water Cycle: Extension Across the Earth Sciences,
       Dr. Eric Barron, Pennsylvania State University

3. Interdisciplinary Studies of the Relationships Between Climate, Ocean Circulation,
        Biological Processes, and Renewable Marine Resources,
        Dr. Ian Barton, Marine Laboratories, Hobart, Australia

4. Northern Biosphere Observation and Modeling Experiment,
      Dr. Josef Cihlar, Canada Center for Remote Sensing, Canada

5. NCAR Project to Interface Modeling on Global and Regional Scales with EOS
     Observations,
     Dr. Robert Dickinson, University of Arizona

6. Hydrology, Hydrochemical Modeling, and Remote Sensing in Seasonally Snow-
      Covered Alpine Drainage Basins,
      Dr. Jeff Dozier, University of California, Santa Barbara

7. Long-Term Monitoring of the Amazon Ecosystems Through EOS: From Patterns to
      Processes, Dr. Joao Soares, Instituto Nacional de Pesquisas Espaciais Divisao
      de Sensoriamento Remoto, Brazil
      Dr. Tom Dunne, University of California, Santa Barbara

8. Use of the Cryospheric System to Monitor Global Change in Canada,
       Dr. Barry Goodison, Atmosphere Environment Service, Canada

9. Biological Fluxes at the Ocean/Atmosphere Interface,
        Dr. Catherine Goyet, Woods Hole Oceanographic Institution

10. Observational and Modeling Studies of Radiative, Chemical, and Dynamical
       Interactions on the Earth's Atmosphere,
       Dr. William Grose, Langley Research Center

11. Interannual Variability of the Global Carbon, Energy, and Hydrologic Cycles,
        Dr. James Hansen, Goddard Institute for Space Studies



                                        15
                                                                         APPENDIX 1

12. Climate Processes Over the Oceans,
       Dr. Dennis Hartmann, University of Washington

13. Climate, Erosion, and Tectonics in Mountain Systems,
       Dr. Bryan Isacks, Cornell University

14. The Hydrologic Cycle and Climatic Processes in Arid and Semi-Arid Lands,
       Dr. Yann Kerr, Center National d'Etudes Spatiales, France
       Dr. Soroash Soroashian, University of Arizona

15. Hydrologic Processes and Climate Interdisciplinary Investigation,
       Dr. William Lau, Goddard Space Flight Center

16. The Processing, Evaluation and Impact on Numerical Weather Prediction of AIRS,
       AMSU, and MODIS Data in Tropics and Southern Hemisphere,
       Dr. John LeMarshall, Bureau of Meteorology Research, Australia

17. The Role of Air-Sea Exchanges and Ocean Circulation in Climate Variability,
       Dr. W. Timothy Liu, Jet Propulsion Laboratory

18. Changes in Biogeochemical Cycles,
       Dr. Berrien Moore III, University of New Hampshire

19. A Global Assessment of Active Volcanism, Volcanic Hazards, and Volcanic Inputs to
       the Atmosphere from EOS,
       Dr. Peter Mouginis-Mark, University of Hawaii-Manoa

20. Investigation of the Atmosphere-Ocean-Land System Related to Climate Processes,
       Dr. Masato Murakami, Meteorological Research Institute, Japan

21. Chemical, Dynamical, and Radiative Interactions through the Middle Atmosphere and
       Thermosphere,
       Dr. John Pyle, Cambridge University, United Kingdom

22. Biosphere-Atmosphere Interactions,
       Dr. David Randall, Colorado State University

23. The Development and Use of a Four-Dimensional Atmospheric-Ocean-Land Data
       Assimilation System for EOS,
       Dr. Richard Rood, Goddard Space Flight Center




                                        16
                                                                          APPENDIX 1

24. Polar Exchanges at the Sea Surface (POLES) the Interaction of Ocean, Ice, and
       Atmosphere,
       Dr. D. Andrew Rothrock, Goddard Space Flight Center

25. Using Multi-Sensor Data to Model Factors Limiting Carbon Balance in Global Arid
       and Semiarid Land,
       Dr. David Schimel, National Center for Atmospheric Research, Boulder, Colorado

26. Investigation of the Chemical and Dynamical Changes in the Stratosphere,
       Dr. Mark Schoeberl, Goddard Space Flight Center

27. Middle and High Latitude Oceanic Variability Study,
       Dr. Meric Srokosz, Chilworth Research Center, United Kingdom

28. Earth System Dynamics: The Determination and Interpretation of the Global Angular
        Momentum Budget Using EOS,
        Dr. Byron Tapley, University of Texas

29. An Interdisciplinary Investigation of Clouds and the Earth's Radiant Energy System
       Analysis,
       Dr. Bruce Wielicki, Langley Research Center




                                       17
THIS PAGE INTENTIONALLY LEFT BLANK




                18
                                                                        APPENDIX 2


EOS Instrument Science Teams and Principal Investigators

1. Active Cavity Radiometer Irradiance Monitor (ACRIM),
        Dr. Richard Wilson, Columbia University

2. Advance Spaceborne Thermal Emission and Reflection Radiometer (ASTER),
       Dr. Anne Kahle, Jet Propulsion Laboratory
       Dr. Hiroji Tsu, Geological Survey of Japan, Japan

3. Advanced Microwave Scanning Radiometer (AMSR),
       Dr. Roy Spencer, Marshall Space Flight Center
       Dr. Akira Shibata, Meteorological Research Institute, Japan

4. Atmospheric Infrared Sounder (AIRS), Advanced Microwave Sounding Unit (AMSU),
      Humidity Sounder from Brazil (HSB),
      Dr. Moustafa Chahine, Jet Propulsion Laboratory

5. Clouds and the Earth's Radiant Energy System (CERES),
       Dr. Bruce Barkstrom, Langley Research Center

6. Dual Frequency Altimeter (DFA), Jason Microwave Radiometer (JMR),
       To Be Determined

7. Earth Observing Scanning Polarimeter (EOSP),
        Dr. Larry Travis, Goddard Institute for Space Studies

8. Enhanced Thematic Mapper Plus (ETM+),
       Dr. Sam Gunard, University of Maryland

9. Geoscience Laser Altimeter System,
       Dr. Bob Schutz, University of Texas

10. High Resolution Dynamics Limb Sounder (HIRDLS),
       Dr. John Barnett, Oxford University, Oxford, England
       Dr. John Gille, National Center for Atmospheric Research, Boulder, Colorado

11. Lightning Imaging Senor (LIS),
       Dr. Hugh Christian, Marshall Space Flight Center,

12. Measurement of Pollution in the Troposphere (MOPITT)
      Dr. James Drummond, University of Toronto, Toronto, Canada
                                        19
                                                                 APPENDIX 2


13. Microwave Limb Sounder (MLS),
       Dr. Joe Waters, Jet Propulsion Laboratory

14. Moderate-Resolution Imaging Spectroradiometer (MODIS),
      Dr. Vincent Salomonson, Goddard Space Flight Center

15. Multi-Angle Imaging SpectroRadiometer (MISR),
      Dr. David Diner, Jet Propulsion Laboratory

16. SeaWinds,
       Dr. Michael Freilich, Oregon State University

17. Solar Stellar Irradiance Comparison Experiment (SOLSTICE),
       Dr. Gary Rottman, University of Colorado

18. Stratospheric Aerosol and Gas Experiment III (SAGE III)
        Dr. Patrick McCormick, Hampton University

19. Tropospheric Emission Spectrometer (TES),
       Dr. Reinhard Beer, Jet Propulsion Laboratory




                                       20
                                                                                     APPENDIX 3


       PROCESS FOR 1990, 1992 AND 1995 IDS TEAM REVIEWS
The OES has used various reviews to evaluate the scientific progress of the IDS teams. This
review process provides the OES the opportunity to evaluate the IDS teams in areas such as
progress of science investigations, management plans, team management, collaboration contacts,
and requirement changes. The OES uses the results of these reviews to (1) establish funding
guidelines for IDS teams, and (2) ultimately determine whether an IDS team's investigation
warrants continuation. The OES conducted reviews in 1990, 1992 and 1995.

1990 Programmatic Review - The 1990 programmatic review (one year after selection of the
IDS teams) was limited to programmatic issues in preparation for submitting execution phase
proposals.

1992 Programmatic Review - The 1992 programmatic review consisted of on-site reviews of the
IDS teams performed by the EOS Program Scientist and other scientists from NASA
Headquarters. Each IDS team was rated as either successful or deficient as a result of this review.


1995 Peer Review - The 1995 peer review focused on areas such as past and future
accomplishments of investigations, major findings, and contributions to the objectives of the EOS
Science Program. For this review, the OES instituted an objective, two step review method to
rate each IDS team. Each IDS team was directed to submit progress reports to related discipline
scientists at universities, private industry, NASA, and federal agencies for review. These
discipline scientists submitted their reviews to a panel of distinguished scientists for further
review. The panel of scientists rated the teams as either exemplary, satisfactory or unsatisfactory.

Note: A similar review process was also followed for the Instrument Science teams.




                                                21
THIS PAGE INTENTIONALLY LEFT BLANK




                22
                                                                                  APPENDIX 4


REPORT DISTRIBUTION
National Aeronautics and Space Administration (NASA) Headquarters
Code A/Office of the Administrator
Code AD/Deputy Administrator
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code H/Associate Administrator for Procurement
Code I/Associate Administrator for External Relations
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Management Assessment Division (10 copies)
Code L/Associate Administrator for Legislative Affairs
Code S/Associate Administrator for Space Science

NASA Field Installations
Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, Lewis Research Center
Director, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center

NASA Offices of Inspector General
Ames Research Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals
Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division,
 General Accounting Office
Special Counsel, Subcommittee on National Security, International Affairs, and Criminal Justice

                                               23
                                                                    APPENDIX 4

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees
Senate Committee on Appropriations
Senate Subcommittee on VA-HUD-Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA-HUD-Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Members
Honorable Pete Sessions, U.S. House of Representatives, Texas




                                             24
